No. 19-67
In the

Supreme Court of the United States
UNITED STATES OF AMERICA,
Petitioner,
v.
EVELYN SINENENG-SMITH,
Respondent.
On Writ of Certiorari to the United States
Court of A ppeals for the Ninth Circuit
BRIEF OF AMICI CURIAE The Electronic
Frontier Foundation, Immigrants Rising,
The Internet Archive and Daphne Keller
IN SUPPORT OF RESPONDENT
David Greene
Counsel of Record
Saira Hussain
Naomi Gilens
Electronic Frontier Foundation
815 Eddy Street
San Francisco, CA 94109
(415) 436-9333
davidg@eff.org
Attorneys for Amici Curiae
293760

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
STATEMENT OF INTERESTS OF AMICI
CURIAE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

THE ENCOURAGEMENT PROVISION’S
BROA D S W EEP T H R E AT ENS
THE SPEECH OF IMMIGR ATION
A DVOCAC Y A N D SERV ICES
ORGANIZATIONS ONLINE . . . . . . . . . . . . . . . 6

II. THE ENCOURAGEMENT PROVISION
WILL CHILL ONLINE PLATFORMS
FROM HOSTING CONSTITUTIONALLY
PROTECTED SPEECH  . . . . . . . . . . . . . . . . . . 10
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

ii
TABLE OF CITED AUTHORITIES
Page
Cases
New York Times v. Sullivan,
376 U.S. 254 (1964)  . . . . . . . . . . . . . . . . . . . . . . . . .  9, 16
Packingham v. North Carolina,
137 S. Ct. 1730 (2017)  . . . . . . . . . . . . . . . . . . . . . . . . 3, 5
Reed v. Town of Gilbert,
135 S. Ct. 2218 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . 15
Reno v. Am. Civil Liberties Union,
521 U.S. 844 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . 13-14
United States v. Sineneng-Smith,
910 F.3d 461 (9th Cir. 2018)  . . . . . . . . . . . . . . . . . . . . . 4
United States v. Williams,
553 U.S. 285 (2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Universal Commc’n Sys., Inc. v. Lycos, Inc.,
478 F.3d 413 (1st Cir. 2007)  . . . . . . . . . . . . . . . . . . . . 11
Statutes
8 U.S.C. § 1324(a)(1)(A)(iv) . . . . . . . . . . . . . . . . . . . . passim
8 U.S.C. § 1324(a)(1)(A)(v) . . . . . . . . . . . . . . . . . . . . . . . . 10
47 U.S.C. § 230(e)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

iii
Cited Authorities
Page
Other Authorities
Abdul Rahman A l Jaloud, Hadi A l Khatib,
Jeff Deutch, Dia Kayyali, and Jillian C.
York, Caught in the Net: The Impact of
“Extremist” Speech Regulations on Human
Ri gh t s C o n t e n t , Ele c t r on i c F r ont i e r
Foundation et al. (May 2019) . . . . . . . . . . . . . . . . . . . 14
Aja Romano, A New Law Intended to Curb
Sex Trafficking Threatens the Future of the
Internet As We Know It, Vox, July 2, 2018  . . . . . . . 11
A lexa , Reddit .com Competitive Analysis ,
Marketing Mix and Traffic, https://www.alexa.
com/siteinfo/reddit.com#section_traffic  . . . . . . . . . . 7
Alexis Ohanian, An Open Letter to the Reddit
Community, Reddit, Jan. 30, 2017 . . . . . . . . . . . .  1612
Am. Civil Liberties Union, Know Your Rights:
Immigrants’ Rights, https: // w w w.aclu.
org/know-your-rights/immigrants-rights/ . . . . . . . . . 8
Associated Press, Arizona Border Activist
Acquitted of Harboring Immigrants, Nov.
20, 2019, https:// ktar.com/story/2849078/
prosecutor-a r izona-border-activ isttried-to-hide-migrants/  . . . . . . . . . . . . . . . . . . . . . . . . 9

iv
Cited Authorities
Page
Bijan Stephen, Porn: You Know It When You
See It, But Can A Computer?, The Verge,
Jan. 30, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Casey Newton, The Trauma Floor, The Verge,
Feb. 25, 2019  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Craigslist, FOSTA, https://www.craigslist.org/
about/FOSTA  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Elliot Harmon, Facebook’s Sexual Solicitation
Policy is a Honeypot for Trolls, Electronic
Frontier Foundation, Dec. 7, 2018 . . . . . . . . . . . . . . . 11
I m m i g r a nt s R i s i n g, R e s o u r c e s, ht t p s: //
immigrantsrising.org/resources/  . . . . . . . . . . . . . . . . 7
Infor med Immig rant, Know Your Rights,
https://www.informedimmigrant.com/guides/
know-your-rights/ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Is it safe to fly (posted Apr. 27, 2019), https://
www.reddit.com/r/immigration/comments/
bi1mbg/is_it_safe_to_fly/ . . . . . . . . . . . . . . . . . . . . . . . 7
J. Clement, Number of Monthly Active Facebook
Users Worldwide, Statista, Nov. 19, 2019 . . . . . . . . . 12
Jennifer M. Urban et al., Notice and Takedown
in Eve r yd ay Pr a c ti ce, Un iv. of Ca l.–
Berkeley P ubl ic Law Resea rch Paper
No. 2755628 (Mar. 22, 2017) . . . . . . . . . . . . . . . . . . . . 13

v
Cited Authorities
Page
Kate Crawford & Tarleton Gillespie, What
Is a Flag For?: Social Media Reporting
Tools and the Vocabulary of Complaint,
New Media & Society (2014)  . . . . . . . . . . . . . . . .  12-13
NAKASEC, Know Your Rights!, https://nakasec.
org/rights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Nat’l Immigration Law Ctr., Know Your Rights,
https://www.nilc.org/get-involved/communityeducation-resources/know-your-rights/ . . . . . . . . . . . 8
Ra fa el Ca r ra n za , Ai d Volunt eers Fo un d
Guilty of Dropping Off Water, Food for
Migrants in Protected Par t of Ar izona
Desert, Arizona Republic, Jan 18, 2019  . . . . . . . . . . . 9
Sarah T. Roberts, Meet the People Who Scar
Themselves to Clean Up Our Social Media
Networks, Macleans, June 15, 2018 . . . . . . . . . . . . . . 13
Taylor Lorenz , Zuckerberg Debates
Immigration with Facebook Commenters,
The Hill, Sept. 1, 2017 . . . . . . . . . . . . . . . . . . . . . . . . . 12
Visa Jou r ney, US Immi gr ati o n Fo r um s,
https://www.visajourney.com/forums . . . . . . . . . . . . . 7

1
STATEMENT OF INTERESTS OF
AMICI CURIAE1
Amici curiae represent a variety of stakeholders
united in their concern that the federal criminal prohibition
in 8 U.S.C. § 1324(a)(1)(A)(iv) silences constitutionally
protected speech, and if upheld here, will work a
unique and pervasive chilling effect on online speech in
particular. Amici—a digital rights advocacy organization,
an immigrant services organization, an online library
seeking to preserve a record of online speech, and an
expert on intermediary liability—represent both the
speakers themselves as well as the intermediaries that
make such speech possible. Because of the statute’s broad
and ambiguous scope, amici—along with other direct
online speakers in support of immigrant rights and the
platforms that host such content—face the risk of criminal
liability.
The Electronic Frontier Foundation (EFF) is a
nonprofit organization that has worked for more than 29
years to protect free speech and civil liberties in the digital
world. EFF and its more than 34,000 active donors have
a powerful interest in ensuring that the Internet serves
as a venue for free speech and the open communication
of ideas for all users.
1. No counsel for a party authored this brief in whole or in part,
and no such counsel or party made a monetary contribution intended
to fund the preparation or submission of this brief. No person
other than the amici curiae, or their counsel, made a monetary
contribution intended to fund its preparation or submission. All
parties have consented in writing to the filing of this brief.
All websites cited in this brief were last visited on January 17,
2020.

2
Immigrants Rising is a fiscally-sponsored project
of Community Initiatives, a nonprofit organization.
Founded in 2006, Immigrants Rising provides resources
and support to undocumented young people to help them
obtain an education, pursue careers, and build a brighter
future for themselves and their community. Immigrants
Rising offers a website aimed at undocumented young
people that provides information on financial resources
for higher education, income generation, immigration legal
assistance, and more.
The Internet Archive is a nonprofit organization that
is building an Internet library to prevent online and other
“born-digital” materials from disappearing into the past.
The Archive collects and displays web materials on behalf
of entities such as the Library of Congress, the National
Archives, state archives, libraries, universities, and other
countries, with the vast majority in its collection consisting
of material authored by third parties. Founded in 1997,
the Archive is among the 300 most visited websites in the
world, with millions of visitors and users daily. Because
the Archive hosts billions of web materials, both collected
by the Archive and uploaded by users, it is functionally
impossible for the Archive to police its contents or respond
to all takedown notices.
Daphne Keller is the Director of Intermediary
Liability at the Center for Internet and Society, a public
interest technology law and policy program at Stanford
Law School. Ms. Keller works to promote well-designed
platform regulation laws, in order to protect the free
exchange of ideas on the Internet. Ms. Keller has
published both academically and in popular press, testified
and participated in legislative processes, and taught and
lectured extensively.

3
SUMMARY OF ARGUMENT
The Encouragement Provision, 8 U.S.C. § 1324(a)(1)
(A)(iv), uniquely threatens constitutionally protected online
speech. As this Court has recognized, the Internet is
where people “engage in a wide array of protected First
Amendment activity on topics as diverse as human thought.”
Packingham v. North Carolina, 137 S. Ct. 1730, 1735-36 (2017)
(citation omitted). Thus, it is of little surprise that
immigrant rights advocates and services providers use
the Internet to share messages of hope and resources that
allow undocumented immigrants to make better lives for
themselves—all of which can be seen as “encouragement,”
and thus illegal, under the Encouragement Provision.
First, the variety and prevalence of speech online in
support of immigrants and the ways in which any Internet
user can amplify such speech illustrates the Encouragement
Provision’s uncertain and overly broad sweep.
Second, by prohibiting an enormous amount of
commonplace speech, the Encouragement Provision also
burdens the online platforms that host this type of speech.
These platforms may themselves be exposed to liability
as the publishers or aiders and abettors of such speech.
The Provision thereby incentivizes platforms to censor
“encouraging” speech on their websites. And because
platforms face great difficulty in enforcing finely drawn
distinctions between prohibited and permitted speech,
they are likely to censor lawful speech about immigration
more broadly.
This Court should affirm the Ninth Circuit, which
correctly recognized the sweeping breadth of speech
that the Encouragement Provision necessarily affects,
from “a loving grandmother who urges her grandson to

4
overstay his visa” to a post “directed at undocumented
individuals on social media” that encourages them to stay
in the United States. United States v. Sineneng-Smith,
910 F.3d 461, 483-84 (9th Cir. 2018).
ARGUMENT
Shortly after this Court heard oral arguments
in Department of Homeland Security v. Regents of
the University of California, 2 thousands of Twitter
users weighed in on the case using the hashtags
#HereToStay and #HomeIsHere. People from across
the country tweeted out in support of undocumented
youth, emphasizing that immigrants make the country
stronger, that the United States is their home, and that
undocumented immigrants should continue to reside
here. Among them was Julián Castro, former Secretary
of Housing and Urban Development and, at the time, a
presidential candidate, who shared:
Home is here.
Roots have been planted here.
Families have been created here.
Degrees have been earned here.
Dreams have been built here.
Futures are here.
#HomeIsHere.
And dreamers3 are #HereToStay
2. Supreme Court Case No. 18-587 (argued Nov. 12, 2019).
3. Recipients of Deferred Action for Childhood Arrivals
(DACA) are often referred to as “Dreamers.”

5
@JulianCastro, Twitter (Nov. 12, 2019, 3:06 PM).4
The Encouragement Provision calls the legality of this
act of tweeting, and the others like it from less prominent
individuals, into question. And given the inherent nature
of social media, the Encouragement Provision poses a risk
of criminal liability to a wide range of speakers beyond
Secretary Castro himself, including anyone who liked or
retweeted it or posted a supportive reply, and Twitter
itself, which provided the platform for this encouragement.
Given its interactive nature, international reach,
and the capacity for both one-to-one and mass real-time
communications, the Internet is an especially effective
medium for the protected speech that the Encouragement
Provision chills. As this Court has recognized, the “vast
democratic forums of the Internet” have become one of
the “most important places . . . for the exchange of views”
today. Packingham, 137 S. Ct. at 1735 (citation omitted).
“Encouraging” speech directed to noncitizens seeking
to enter or remain in the United States without legal
authorization is found across the Internet, not merely
on social media platforms. Websites, applications, cloudbased document-sharing systems, and messaging services
abound with such speech. And the speakers represent a
wide range of interests, from concerned private individuals
to governmental officials, from advocacy organizations to
“aliens” themselves.
The overbreadth and ambiguity of the Encouragement
Provision thus poses special threats to online speech.
4. https://twitter.com/JulianCastro/status/1194391098606665730.

6
I.

T H E E NC OU R AGEM E N T PR OV I S ION ’ S
BROAD SWEEP THREATENS THE SPEECH
OF IMMIGRATION ADVOCACY AND SERVICES
ORGANIZATIONS ONLINE.

Advocacy and services organizations use a wide
variety of online tools to provide information to both the
general public and noncitizens specifically.
Hundreds of community-based organizations
utilize websites to provide undocumented immigrants
with resources on how to obtain healthcare, housing,
and other services. Amicus Immigrants Rising, a
nonprofit organization whose mission is to “empower
undocumented young people to achieve educational and
career goals through personal, institutional, and policy
transformation,” provides a number of online resources
for undocumented people, including:
• Information about undergraduate and graduate
scholarships;
• In-State Tuition Tool, a survey that helps determine
whether a student qualifies for in-state tuition in
California and advises on how to achieve future
eligibility;
• Resources on entrepreneurship opportunities and
how immigrant entrepreneurs can protect their
assets;
• Mental Health Connector, a questionnaire that
connects young people with psychological support;
and

7
• Legal Intake, a survey to learn about possible
immigration options. 5
***
Several websites allow users to solicit advice from
other users regarding immigration matters. Reddit, a
social news aggregation and discussion website, is the
sixth-most visited website in the United States.6 Users
can submit posts to boards arranged by topic, known
as “subreddits.” The Immigration subreddit has 21,000
members, and users submit and respond to posts seeking
advice on immigration matters.7 On any given day, several
of the top threads include questions about whether and
how an undocumented immigrant can remain in the United
States. For example, in one post, a user asked whether
her undocumented friend would be able to fly within the
United States. 8 Other users responded with statements
such as “I’d risk it” and “I have friends that fly often. Is
safe.” Through these threads, users often receive advice
about their immigration options, including coming into
or remaining in the United States without authorization.
5. Immigrants Rising, Resources, https://immigrantsrising.
org/resources/.
6. Alexa, Reddit.com Competitive Analysis, Marketing Mix
and Traffic, https://www.alexa.com/siteinfo/reddit.com#section_
traffic.
7. Reddit, Immigration Subreddit, https://w w w.reddit.
com/r/immigration/. Visa Journey, a website that bills itself
“America’s Largest Immigration Community,” also provides similar
functionality. See Visa Journey, US Immigration Forums, https://
www.visajourney.com/forums.
8. Reddit, Is it safe to fly (posted Apr. 27, 2019), https://www.
reddit.com/r/immigration/comments/bi1mbg/is_it_safe_to_fly/.

8
***
Many legal organizations provide materials on their
websites to inform undocumented immigrants about
their legal rights. The American Civil Liberties Union,
for example, provides an in-depth “know your rights”
page with resources available in 14 languages to counsel
undocumented immigrants on their rights if immigration
agents come to their home or if they are stopped at the
border. 9 Such materials accurately inform immigrants
that they need not answer questions if law enforcement
asks about their immigration status and should not open
their door if immigration officers come to their home
without a search or arrest warrant.
***
Tweets assuring undocumented youth that their
#HomeIsHere and that they are #HereToStay are
intended to inspire, inspirit, embolden, and give hope or
courage to those youth facing revocation of the DACA
policy. Speech informing undocumented immigrants about
their legal rights when conversing with immigration agents
similarly embolden those immigrants to remain within
the country. And speakers who direct undocumented
immigrants to resources that will allow them to build
meaningful and productive lives within the United States
9. Am. Civil Liberties Union, Know Your Rights: Immigrants’
Rights, https://www.aclu.org/know-your-rights/immigrants-rights/.
See also, e.g., Informed Immigrant, Know Your Rights, https://
www.informedimmigrant.com/guides/know-your-rights/; Nat’l
Immigration Law Ctr., Know Your Rights, https://www.nilc.org/
get-involved/community-education-resources/know-your-rights/;
NAKASEC, Know Your Rights!, https://nakasec.org/rights.

9
inspirit and enable immigrants to remain unlawfully in
the country, and give immigrants hope that this country
wants them here.
The Encouragement Provision, on its face, prohibits
all these examples of speech found across the Internet.
As set forth in the constitutional and legal analysis
in Respondent’s brief, the Encouragement Provision
bans exactly what it says: any speech that tends to
inspire, inspirit, embolden, or give hope or courage to
noncitizens regarding the prospect of residing unlawfully
in the United States. See Resp. Br. at 17-34. And,
regardless of the government’s late-hour assurances
about what it will and will not prosecute, the existence
of the Provision will inhibit reasonable speakers from
engaging in this constitutionally protected speech for
fear of criminal punishment.10 Our nation’s profound
commitment to uninhibited, robust, and wide-open
debate on public issues cannot permit such a result. See
New York Times v. Sullivan, 376 U.S. 254, 270 (1964).

10. A speaker may legitimately fear that the Department of
Justice will prosecute immigration laws to the fullest extent their
plain language indicates. See, e.g., Associated Press, Arizona Border
Activist Acquitted of Harboring Immigrants, Nov. 20, 2019, https://
ktar.com/story/2849078/prosecutor-arizona-border-activist-triedto-hide-migrants/; Rafael Carranza, Aid Volunteers Found Guilty
of Dropping Off Water, Food for Migrants in Protected Part of
Arizona Desert, Arizona Republic, Jan. 18, 2019, https://www.
azcentral.com/story/news/2019/01/18/no-more-deaths-volunteersfound-guilty-dropping-water-food-migrants-cabeza-prieta-refugearizona/2617961002/.

10
II. THE ENCOURAGEMENT PROVISION WILL
CHILL ONLINE PLATFORMS FROM HOSTING
CONSTITUTIONALLY PROTECTED SPEECH
It is not only the speakers themselves who may face
criminal liability for their “encouraging” statements
online. Internet speech typically requires several layers of
intermediaries: web hosts, social media platforms, domain
name registers, security-service providers, and numerous
others. If only one of these intermediaries is chilled by
the law—either for fear of direct liability as a publisher
of “encouraging” speech, or for fear of liability as an aider
and abettor of such speech11—the online speaker will lose
their ability to reach their audience.12
To avoid the risk of criminal penalties, intermediaries
would need to moderate speech about immigration on
their platforms, censoring users’ speech that crosses the
line—or that risk-averse platforms fear may cross the
line—into “encouragement” in violation of the statute.
Thus, even if a speaker is, in fact, willing to risk the threat
of criminal prosecution and engage in speech encouraging
noncitizens to reside in the United States regardless of
the Encouragement Provision’s prohibition, they may well
find themselves stifled by the online platforms on which
they rely.
11. See 8 U.S.C. § 1324(a)(1)(A)(v).
12. In some circumstances, federal law protects online
intermediaries from legal responsibility for users’ speech that the
intermediaries host, but the statute contains an exception allowing
for federal criminal enforcement. 47 U.S.C. § 230(e)(1). Platforms
would thus receive no immunity from intermediary liability under
the Encouragement Provision.

11
Moreover, even users engaging in perfectly lawful
speech about immigration may find themselves censored,
because intermediaries are ill-equipped to accurately
moderate the content of their users’ speech. When faced
with the risk that the speech they are transmitting may
be illegal, intermediaries commonly choose to broadly
restrict all speech about a topic rather than take on the
expensive and unmanageable burden of distinguishing
lawful from unlawful speech—a task that becomes even
more unmanageable when the bounds of lawfulness are
ill-defined. When Congress banned online advertisements
for sex work, for example, platforms including Facebook,
Tumblr, Craigslist, and others responded by adopting
sweeping prohibitions on content that reached far beyond
the specific category of speech that the law targeted.13
Imposing broad restrictions on wide swaths of speech
may be a platform’s only practical way of enforcing a
narrower legal prohibition, in light of both the enormous
volume of speech that platforms host, and the difficulty of
parsing prohibited and permissible speech. See Universal
Commc’n Sys., Inc. v. Lycos, Inc., 478 F.3d 413, 418-19 (1st
Cir. 2007) (citing cases).

13. See, e.g., Craigslist, FOSTA, https://www.craigslist.org/
about/FOSTA; Aja Romano, A New Law Intended to Curb Sex
Trafficking Threatens the Future of the Internet As We Know It,
Vox, July 2, 2018, https://www.vox.com/culture/2018/4/13/17172762/
fosta-sesta-backpage-230 -internet-freedom; Elliot Harmon,
Facebook’s Sexual Solicitation Policy is a Honeypot for Trolls,
Electronic Frontier Foundation, Dec. 7, 2018, https://www.eff.org/
deeplinks/2018/12/facebooks-sexual-solicitation-policy-honeypottrolls.

12
First, online intermediaries deal with a staggering
volume of expression. Although these companies are quite
clearly aware that debate over immigration is occurring
through their services—at times even provoking and
participating in that debate themselves on their own
platforms14 —it would require a monumental dedication of
resources to monitor how each of their thousands, millions,
and sometimes billions of users15 engage on the topic.
Already, to enforce internal standards for user speech,
platforms must necessarily rely on their users to flag
content that violates the platforms’ standards.16 At large
14. See, e.g., Alexis Ohanian, An Open Letter to the Reddit
Community, Reddit, Jan. 30, 2017, https://w w w.reddit.com/r/
blog/comments/5r43td/an_open_letter_to_the_reddit_community/
(Reddit founder and executive chairman stating that “Reddit, Inc.
will continue to welcome all citizens of the world to our digital
community and our office,” and inviting Reddit users to share
their own immigration stories and receiving 30,900 responses);
@Twitter, Twitter (Jan. 28, 2017, 5:20 PM), https://twitter.com/
twitter/status/825513865794293761 (Twitter’s official company
account stating: “Twitter is built by immigrants of all religions. We
stand for and with them, always.”; and receiving 10,000 responses);
Taylor Lorenz, Zuckerberg Debates Immigration with Facebook
Commenters, The Hill, Sept. 1, 2017, https://thehill.com/blogs/
ballot-box/348865-mark-zuckerberg-debates-immigration-withfacebook-commenters (reporting that Facebook founder and CEO
Mark Zuckerberg publicly expressed support for DACA and debated
immigration with members of the public on Facebook).
15. See, e.g., J. Clement, Number of Monthly Active Facebook
Users Worldwide, Statista, Nov. 19, 2019, https://www.statista.
com/statistics/264810/number-of-monthly-active-facebook-usersworldwide/ (noting that Facebook has 2.45 billion active users each
month).
16. See, e.g., Kate Crawford & Tarleton Gillespie, What Is a
Flag For?: Social Media Reporting Tools and the Vocabulary of

13
platforms, thousands of staff and contractors then review
the flagged material, often making snap judgments about
each item in order to get through the enormous volume of
material awaiting review.17 At smaller ones, where such
staffing is impossible, employees may simply honor any
takedown demand, no matter how legally unfounded.18 It is
simply not conceivable that intermediaries would, or could,
dedicate the human labor that would be needed to sift
through the enormous volume of speech shared on their
platforms to remove speech that encourages noncitizens
to reside in the United States unlawfully.
Where platforms face the threat of criminal penalties,
community policing inevitably results in the heckler’s veto,
whereby an intermediary will choose to delete content
that is subject to a complaint rather than taking on the
time and expense to investigate the legitimacy of the
complaint. See Reno v. Am. Civil Liberties Union, 521 U.S.
Complaint, New Media & Society (2014), https://pdfs.semanticscholar.
org/96e8/d4d6f325b9173fba4d17aadf1c5c6f48edbe.pdf (describing
user flags as “a ubiquitous mechanism of governance” online that
serves “as a solution to the problem of curating massive collections
of user-generated content”).

17. See Casey Newton, The Trauma Floor, The Verge,
Feb. 25, 2019, https://w w w.theverge.com/2019/2/25/18229714/
cognizant-facebook-content-moderator-interviews-trauma-workingconditions-arizona; Sarah T. Roberts, Meet the People Who Scar
Themselves to Clean Up Our Social Media Networks, Macleans,
June 15, 2018, https://www.macleans.ca/opinion/meet-the-peoplewho-scar-themselves-to-clean-up-our-social-media-networks/.
18. See Jennifer M. Urban et al., Notice and Takedown in
Everyday Practice, Univ. of Cal.–Berkeley Public Law Research
Paper No. 2755628 (Mar. 22, 2017), at 41 (noting that some platforms
honor all requests).

14
844, 880 (1997) (explaining that law prohibiting indecent
messages to minors online “would confer broad powers
of censorship, in the form of a ‘heckler’s veto,’ upon any
opponent of indecent speech”). Here the heckler’s veto is of
special concern because of the Encouragement Provision’s
broad and uncertain scope.
Artificial intelligence and algorithms do little to help.
Such tools have consistently proved faulty, and remove
content with little to no transparency or public oversight.19
Drawing the inherently contextual line between speech
that lawfully discusses immigration issues from speech
that, under the Encouragement Provision, unlawfully
expresses encouragement for noncitizens to reside
in the country is a daunting enough task for a human
being. It is an even more difficult one for a machine,
even if it were clear what the Encouragement provision
criminalized. Again, this difficulty is only exacerbated by
the uncertainty in the Encouragement Provision’s reach.

19. See generally Abdul Rahman Al Jaloud, Hadi Al Khatib,
Jeff Deutch, Dia Kayyali, and Jillian C. York, Caught in the Net:
The Impact of “Extremist” Speech Regulations on Human Rights
Content, Electronic Frontier Foundation et al. (May 2019), https://
www.eff.org/files/2019/05/30/caught_in_the_net_whitepaper_2019.
pdf (explaining that automated take-down systems are inaccurate
and opaque, and describing effect on marginalized speakers).
See also Bijan Stephen, Porn: You Know It When You See It,
But Can A Computer?, The Verge, Jan. 30, 2019, https://www.
theverge.com/2019/1/30/18202474/tumblr-porn-ai-nudity-artificialintelligence-machine-learning (explaining difficulty in training
artificial intelligence to parse content).

15
Internet platforms have little incentive to expend
enormous effort and resources in a Sisyphean battle to sift
through a massive volume of speech in order to precisely
identify user speech that the Encouragement Provision
prohibits. Instead, platforms seeking to minimize their
own criminal exposure under the statute are likely
to simply censor all expression about immigration
wholesale, or—perhaps even more troublingly—remove
all expression favoring an immigration policy based on
principles of inclusion and decriminalization because such
expression is likeliest to violate the statute, while allowing
speech favoring more restrictive and punitive immigration
policies to remain online. 20
As a result, even users seeking to engage in lawful
speech about immigration may find themselves refused
entry to the modern public square. Such a result would
stifle debate over one of the most important public issues
confronting the nation today.

20. The Provision’s “intent or effect of favoring some ideas over
others . . . raises the specter that the Government may effectively
drive certain ideas or viewpoints from the marketplace.” Reed v.
Town of Gilbert, 135 S. Ct. 2218, 2238 (2015) (Kagan, J., concurring
in the judgment) (citation omitted). Such laws are constitutionally
suspect and subject to the most exacting form of scrutiny. Id. See
also Resp. Br. at 43-47.

16
Conclusion
The Encouragement Provision threatens to stifle
the free exchange of ideas online about one of the most
contentious and important political questions of our
time. See United States v. Williams, 553 U.S. 285, 293
(2008). Such a result is antithetical to our nation’s unique
and profound commitment to the protection of speech. See
New York Times v. Sullivan, 376 U.S. at 270. In light of
the foregoing, the judgment of the Ninth Circuit should
be affirmed.
January 22, 2020

Respectfully submitted,
David Greene
Counsel of Record
Saira Hussain
Naomi Gilens
Electronic Frontier Foundation
815 Eddy Street
San Francisco, CA 94109
(415) 436-9333
davidg@eff.org
Attorneys for Amici Curiae

